LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

September 25, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-251:

AMERICANS FOR PROSPERITY FOUNDATION V. XAVIER BECERRA,
IN HIS OFFICIAL CAPACITY AS ATTORNEY GENERAL OF
CALIFORNIA

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus
Curiae The Institute for Free Speech in Support of Petitioner referenced above contains
2,714 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
As a member of the Supreme Court Bar, I declare under penalty of perjury that
the foregoing is true and correct.
Sincerely,

Arthur D. Chotin, Esq.
Principal

